<html>
<title> - REDUCING REGULATORY MANDATES ON EDUCATION</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


 
               REDUCING REGULATORY MANDATES ON EDUCATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 1997

                               __________

                           Serial No. 105-67

                               __________

Printed for the use of the Committee on Government Reform and Oversight










                       U. S. GOVERNMENT PRINTING OFFICE
45-630                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                    Subcommittee on Human Resources

                CHRISTOPHER SHAYS, Connecticut, Chairman
VINCE SNOWBARGER, Kansas             EDOLPHUS TOWNS, New York
BENJAMIN A. GILMAN, New York         DENNIS J. KUCINICH, Ohio
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARK E. SOUDER, Indiana              TOM LANTOS, California
MICHAEL PAPPAS, New Jersey           BERNARD SANDERS, Vermont (Ind.)
STEVEN SCHIFF, New Mexico            THOMAS M. BARRETT, Wisconsin

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                       R. Jared Carpenter, Clerk
                    Cherri Branson, Minority Counsel





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 12, 1997....................................     1
Statement of:
    Granger, Hon. Kay, a Representative in Congress from the 
      State of Texas.............................................     9
    Saylor, Joan, New Jersey Association of School Business 
      Officials; Anne L. Bryant, executive director, National 
      School Boards Association; Jannis Hayers, Texas Association 
      of School Boards; and Marilyn Cross, National Education 
      Association................................................    19
Letters, statements, etc., submitted for the record by:
    Bryant, Anne L., executive director, National School Boards 
      Association, prepared statement of.........................    32
    Condit, Hon. Gary, a Representative in Congress from the 
      State of California, prepared statement of.................     8
    Cross, Marilyn, National Education Association, prepared 
      statement of...............................................    57
    Granger, Hon. Kay, a Representative in Congress from the 
      State of Texas, prepared statement of......................    13
    Hayers, Jannis, Texas Association of School Boards, prepared 
      statement of...............................................    46
    Saylor, Joan, New Jersey Association of School Business 
      Officials, prepared statement of...........................    22
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................     6


               REDUCING REGULATORY MANDATES ON EDUCATION

                              ----------                              


                        THURSDAY, JUNE 12, 1997

                  House of Representatives,
                   Subcommittee on Human Resources,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 2247, Rayburn Building, Hon. Christopher Shays (chairman 
of the subcommittee) presiding.
    Present: Representatives Shays, Pappas, Barrett, and 
Kucinich.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Deborah F. Holmes, congressional fellow; and R. Jared 
Carpenter, clerk.
    Mr. Shays. I would like to call this hearing to order and 
welcome our witnesses and our guests.
    Although we dropped ``intergovernmental relations'' from 
our name, the change was typographical, not jurisdictional. 
Under House and committee rules, this subcommittee remains 
responsible for all matters bearing on the relationship of the 
Federal Government to the States and municipalities.
    In recent years, nothing has defined or strained that 
relationship more than unfunded Federal mandates, statutory 
directives that impose substantive, administrative, and fiscal 
obligations on State and local governments. When he signed the 
Unfunded Mandates Reform Act of 1995, President Clinton joined 
a Republican Congress in the effort to restore balance in 
Federal-State relations and to identify, quantify, and limit 
the impact of new and existing mandates.
    That is our purpose here today, to examine the scope and 
effects of existing Federal mandates, specifically those 
imposing additional burdens on local schools. Schools are at 
the bottom of the mandate food chain. Regulatory requirements 
from Washington, the State capital, the county seat, and city 
hall flow directly, indirectly, and often simultaneously, into 
the classroom.
    No matter how well-intended or beneficial the individual 
mandate, the cumulative effect of compliance with multiple 
mandates can drain school budgets and divert educators' time 
and attention from their primary mission, teaching.
    We asked our witnesses today to identify mandated paperwork 
requirements, administrative procedures, and direct spending 
they believe impose a burden on schools beyond their benefit to 
students. We asked what flexibility is currently available to 
schools in meeting mandates and what additional flexibility 
might be warranted to fix mandates more realistically into the 
educational mission.
    Mandate relief is the process of finding more appropriate 
means to achieve legitimate regulatory ends. No one disputes 
the needs for national education data, accommodation for 
disabled students, or environmentally-safe schools, but the 
undisputed worth of a goal cannot always justify heavy-handed 
Federal insistence on rigid State and local compliance with a 
one-size-fits-all strategy to reach the goal.
    Particularly in areas of primary State authorities, such as 
education, principles of federalism and intergovernmental 
comity demand a more careful marriage of ends to means than has 
been our habit at the National level. We're beginning to break 
the mandate habit. The Unfunded Mandates Relief Act should make 
new mandates less frequent and less costly. The Educational 
Flexibility Partnership Demonstration Program, or Ed-Flex, 
gives the Department of Education and States the power to 
tailor Federal education funding and requirements within the 
context of a comprehensive school improvement plan.
    The Individuals With Disabilities Education Act 
reauthorization, approved this year with bipartisan support and 
signed by the President on June 4, contains mandate relief and 
increased flexibility to improve academic programs for disabled 
students. But educators still face a daunting tangle of 
mandatory Federal laws, regulations, reports, standards, 
applications, commitments, inspections, and certifications that 
needlessly divert time and money from their overriding mandate, 
to teach our children.
    Our goal today and in the future hearings is to help 
educators inventory Federal mandates, measure their impact, 
weigh their value in building better schools, and see where 
greater flexibility can serve the same ends through other 
means.
    Our witnesses today, Members of Congress, local educators, 
and school administrators, all share a deep commitment to 
quality education and to a constructive Federal role in 
improving America's schools. We appreciate their time and the 
benefit of their expertise, and we welcome their testimony.
    At this time, I would like to recognize Mr. Pappas.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T5630.001
    
    [GRAPHIC] [TIFF OMITTED] T5630.002
    
    Mr. Pappas. Thank you, Mr. Chairman. I want to commend you 
for holding this meeting, which I view to be critically 
important to the citizens, the taxpayers, and the local 
officials of our country. Having served in local government for 
many years, I'm a great believer in local government and its 
ability to be, really, the most efficient and effective layer 
of government and view my service here in Washington as an 
opportunity to be supportive of these folks and for the 
important job that they do.
    We in Washington need to realize that the people back home 
in our communities need to be empowered as much as they can, 
and this hearing this morning, I think, is an important step in 
demonstrating our desire here in the House of Representatives 
to hear what these people have to say and to try to tailor our 
programs and our initiatives to them.
    I was a great supporter of the Unfunded Mandates Relief Act 
that was enacted into law many years ago, but quite frankly, 
view it as a first step. One of the things I know Congresswoman 
Granger and I have been working on, with other Members of 
Congress, is to begin to look at existing unfunded mandates and 
their practical effect upon our desire to see the needs of our 
citizens met.
    And I look forward to hearing from my colleague and from 
the other witnesses this morning. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman. And we do have a quorum. 
And I just would like to take care--and since this is standard 
stuff, just get two housekeeping pieces out of the way. I ask 
unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record and that 
the record remain open for 3 days for that purpose, and without 
objection, so ordered.
    I also ask, further, unanimous consent that all Members be 
permitted to include their written statement in the record. 
Without objection, so ordered.
    [The prepared statements of Hon. Edolphus Towns and Hon. 
Gary Condit follow:]
[GRAPHIC] [TIFF OMITTED] 45630.003

[GRAPHIC] [TIFF OMITTED] 45630.004

[GRAPHIC] [TIFF OMITTED] 45630.005

    Mr. Shays. We will begin with our first panel and invite 
the Honorable Kay Granger from Texas, a former teacher, a 
former mayor, to come forward and testify. And if you would 
just remain standing. As you know, Kay, we swear in all of our 
witnesses, including Members of Congress. If you would raise 
your right hand.
    [Witness sworn.]
    Mr. Shays. Thank you. By swearing in all our witnesses, we 
don't ever get into an issue of why some are sworn in and 
others aren't. And when we swear in Secretaries, I would like 
to be able to also say we swear in Members of Congress. Great 
to have you here.
    Ms. Granger. Thank you.
    Mr. Shays. And look forward to your testimony.

  STATEMENT OF HON. KAY GRANGER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Ms. Granger. Thank you very much. Thank you, Mr. Chairman.
    Thank you, Mr. Pappas. As you said, I do share our 
experience at the local level, and I appreciate your concern 
and enjoyed working with you on existing unfunded mandates and 
taking the next step from what the past Congress did. Thank you 
for your help.
    I'm honored to speak today on something that is very 
important to America's future, and that is America's children 
and America's education. The poet Maya Angelou once said, ``A 
cynical child is one who has made the transition from knowing 
nothing to believing nothing.'' Nowhere is it more true than in 
the arena of education, where the goal is not just to grant 
knowledge to our students, but also to give them hope. Sadly, 
many of our schools fail on both counts.
    It's true that our young people today, some are not able to 
write or to calculate numbers as they should, but more 
profoundly, many of our young people are discouraged and 
disillusioned. They have lost hope in themselves, and they have 
lost faith in this country. And that is truly the American 
tragedy.
    These precious young people are the ones who ultimately pay 
the price when our schools fail. The young people are the 
victims of schools that have failed them, and sometimes, 
communities that have given up on them. This is a situation 
which we must address, and I am very glad that you are doing 
that, because, Mr. Chairman, I believe that no first class 
nation can have second class citizens.
    Today more than ever, our schools and our teachers need our 
help, and our children need our help. Teachers aren't able to 
do their best teaching, and our children are not able to learn 
to the best of their abilities, yet the problem is not always 
instruction. America's teachers are a national asset. In fact, 
as a former schoolteacher myself, I recognize the contribution, 
and I empathize with the concerns of teachers.
    Everywhere in America, there are teachers who inspire their 
students to never settle and never achieve--but always achieve, 
and too many times, teachers still find themselves trapped in a 
system that fails them and their students. Rules and 
regulations passed down from Washington tie the hands of our 
teachers, and perhaps most significantly, court rulings have 
left our public schools in a quandary of confusion and 
confinement.
    Unfortunately, judges and bureaucrats are not the ones who 
are most dramatically affected by ineffective policies sent 
down from Washington. Instead, our Nation's most precious 
commodity, our children, are the ones who pay the price.
    When I started teaching in the public schools in 1966, I 
felt like I was making a difference. I chose that career. I 
challenged my students. I set very high expectations for them. 
And I developed relationships with my students, many of whom 
keep up with me today.
    When I left teaching 11 years later, the classroom that I 
left bore little resemblance to the one I started teaching in. 
In just over 10 years, I had gone from teaching children to 
pushing paper. Instead of teaching my children King Lear or The 
Canterbury Tales, I spent a large part of my day filling out 
forms and paperwork.
    So as a former public school teacher, I'm very concerned 
with America's classrooms. And I think my years as a teacher 
have given me perhaps a unique perspective of what works in the 
classroom and what doesn't.
    I believe the first key to improving education is demanding 
discipline in our schools and our classrooms. It is impossible 
for teachers to teach and students to learn when they fear for 
their safety. Teachers and students should be focused on 
theorems and sentence structure. Instead, many times, they're 
worrying about handguns and gang violence. And they told me 
that when I was mayor of my city.
    Next, I believe teachers should be able to teach again. We 
should untie their hands and allow them to teach basics again. 
Recent research by the National Assessment of Educational 
Progress has shown that among 12th graders, only 43 percent 
attained the basic level of proficiency in history, and only 12 
percent of 8th graders are able to write well-developed 
stories.
    Many of the problems teachers face while trying to teach 
their students is changing curriculum. Many times, schools 
change strategies in the beginning of each school year. One 
year, a teacher is told to teach traditional spelling and 
reading; the next year, they're told to begin teaching whole 
language, where the emphasis is not on a wrong or right answer, 
but the process of arriving at that answer. To me, it's very 
simple. Teachers should teach tried and true methods for 
reading and math.
    We also need to return to higher expectations and tough 
standards. For too long, we have lowered the bar in the hopes 
that more kids would be able to make it over the top. Why not 
raise the bar and challenge each and every child to raise their 
effort and meet a higher standard?
    We should give students the grades they earn. I'm opposed 
to all inflation, but as a teacher, I'm especially opposed to 
grade inflation. We're doing no child a favor by passing them 
on to the next grade level when they simply aren't ready.
    And do we really think that by not hurting a child's 
feelings, we're helping them find a job today? Again, the key 
is to expect and require more from students, and I believe 
they'll respond in kind.
    The next step is have more parental involvement. Moms and 
dads should be encouraged to be parents at home and also 
partners in education. We should expect more at a younger age. 
The research we're now doing shows brain development of a child 
occurs most rapidly in the younger years, and yet we wait until 
high school, for instance, to teach languages.
    Finally, I believe that we must return the teaching 
profession to a place of honor and respect in our society.
    Mr. Shays. We're not trying to rush you off. The light is 
irrelevant, so take your time.
    Ms. Granger. All right. Fine. By treating teachers with 
more respect, we can begin to return the love of education to 
our schools. Learning shouldn't just be fun, but it should be 
exhilarating for teachers and for students. Teachers should go 
to work each day, knowing that today, they'll be able to shape 
some young person's life forever, and students should go to 
school every day knowing that a world of opportunity and a 
wealth of knowledge will be opened to them.
    Let me tell you about one example of real learning that I 
experienced. We have a program called Summer Bridge in Fort 
Worth. It's a summer program where children are chosen, the 
most at-risk schools at the most at-risk time. That's the 
middle schools.
    These disadvantaged children go to a school where they're 
taught advanced math, science, and English. They write poetry 
and plays. They're taught by students--we choose our best and 
brightest from our junior and senior level--and from college 
students, who normally go back in the summer to work as waiters 
and waitresses. Instead, they learn the joy of teaching.
    Two things happen in this project called Summer Bridge, as 
it bridges the summer and teaches learning. First is, the kids 
get an outstanding education. They're challenged with higher 
expectations, and they're encouraged by the sight of their 
teachers, not much older than them, who by example demonstrate 
that learning can be challenging.
    We challenge the best and the brightest, and those students 
who plan to go into other careers and earn as much money as 
they can instead learn the joy of teaching, and they come back 
and we attract those brightest and the best, the teachers. It's 
a wonderful program. It can be replicated everywhere.
    The important thing is that we're not saying that there is 
one way to do it, and Washington should never be saying there 
is one way to do it. What I'm saying is, release the creativity 
and the involvement at the local level to make those decisions 
about how to teach and how to learn.
    Mr. Chairman, I believe in America's students, and I 
believe in teachers, and I believe also in America's parents. 
We can improve education in America if we only can create an 
environment where teachers and students can do what they do 
best, and that's teach, and that's learn.
    That's why I'm supportive of common sense education reforms 
like the one introduced by Joe Pitts, which requires 95 percent 
of Federal money to go directly to the classroom; and Pete 
Hoekstra's Crossroads Project, which is to examine the 760 
different education programs operated by 39 different Federal 
departments and agencies and decide which are good and which 
are not and quit paying for the ones that are not effective, 
like Mike Pappas, who is looking at unfunded mandates and 
seeing what is going to really work and why strangle our 
schools as we strangle our businesses.
    I believe that there are some things that Washington can do 
to improve America's education, but the real answers come from 
the people that are involved, the parents and the local 
communities. Today in our public schools, we're beginning to 
see a modest rise in SAT scores and grade point averages, but 
we're seeing parents who are very concerned in making the 
decisions about where they live and where they work, making 
that decision on where their children can be educated.
    All these things are very important. What I'm saying is, we 
owe it to our children, who are our future, to decide that we 
will have the best colleges and the best schools in the world, 
the best K through 12, because that's where children begin to 
learn first. Our vision is a glorious one, an America where 
children are not only well-educated, but more importantly, an 
America where our children believe in themselves and their 
country and our government.
    Thank you very much.
    [The prepared statement of Hon. Kay Granger follows:]
    [GRAPHIC] [TIFF OMITTED] 45630.006
    
    [GRAPHIC] [TIFF OMITTED] 45630.007
    
    [GRAPHIC] [TIFF OMITTED] 45630.008
    
    [GRAPHIC] [TIFF OMITTED] 45630.009
    
    Mr. Shays. Thank you very much. I have a question or two, 
if you have time. I know you need to rush off, but let me just 
ask you, from being a schoolteacher, what did you do after 
that? Can you just walk me----
    Ms. Granger. I left, and I went to business, and I owned my 
own business. I'm an insurance agent.
    Mr. Shays. And from business right to Congress, or----
    Ms. Granger. Then at the local level, city council; then, 
mayor, Fort Worth; and then Congress.
    Mr. Shays. When you were on the city council and the mayor, 
how would you have interfaced with the Department of 
Education--not the Department, but your own school education 
programs?
    Ms. Granger. What we did, we worked very closely, and it 
was--what we saw is the future of our city depends on the 
education that our children receive.
    For instance, when I came in as mayor, Fort Worth was the 
second-hardest-hit city in the United States with defense 
downsizing. That came right after a major recession. So we 
had--we lost 50,000 defense jobs in 2\1/2\ years in Fort Worth. 
We had to attract industry to the city.
    Mr. Shays. How many jobs did you lose, you said?
    Ms. Granger. 50,000 in defense only.
    Mr. Shays. Is this why John Kasich calls you ``F-16''?
    Ms. Granger. I think that's why he calls me ``F-16.'' 
That's right. [Laughter.]
    Mr. Shays. No more jobs. You're not going to lose any more 
jobs.
    Ms. Granger. Thank you. I appreciate that. As long as you 
keep giving me F-16s, we won't. But we had to attract those 
industries, Intel, Federal Express, Motorola, Nokia. The 
question they asked me as mayor is, ``Are you going to give us 
a work force that's as educated for us to train for the 21st 
century?'' That means we had to work very closely with 
education and ensure that was true.
    Mr. Shays. Mr. Pappas.
    Mr. Pappas. Kay, I'm just wondering if you could elaborate 
a bit upon what you spoke about earlier, frustration that you 
may have felt where at the beginning of your teaching career, 
you spent more time and emphasis on teaching your students, and 
yet during the period of time that you taught, that you saw 
that start to change.
    Ms. Granger. Yes. When I came in, I had a wonderful 
principal. The first thing he says is, ``Kay, if it doesn't 
work, don't do it again.'' That was the rule, which means he 
said, ``Try what works in your classroom.'' I had one classroom 
that was a very difficult class. It was sort of the throwaway 
kids. I couldn't get their attention, so I took the desks out 
of the room. They had to stand up and listen to me. They tended 
to listen more closely.
    When I left, the orientation focused only--almost entirely 
on, ``This is what you can't do in your classroom. You can't 
touch a student, you can't talk too much to a student. You have 
to fill out these forms.'' We were form filler-outers as 
teachers. I saw the year that I left teaching, I saw seven of 
our very best left, and they left to go into business.
    Mr. Shays. Really great to have you here. Nice to have you 
as a Member of Congress.
    Ms. Granger. Thank you very much. I appreciate that.
    Mr. Shays. I'm told, by the way, that Texans don't like a 
lot of mandates. Is that accurate?
    Ms. Granger. We don't like it at all. [Laughter.]
    Mr. Shays. We have a wonderful panel. This is a shorter 
hearing than we usually have, given that we only have two 
panels, and one of the panels happens to be a Member of 
Congress.
    So I'm going to invite to the table--and if they would 
remain standing until I swear them in--Anne Bryant, who's 
executive director, National School Boards Association; Joan 
Saylor, assistant superintendent for business administration, 
board secretary, Freehold Regional High School, and member, 
Association of School Business Administrators; Jannis Hayers, 
president, Board of Trustees, Electra independent school 
district, Electra, TX, and president, Texas Association of 
School Boards; and Marilyn Cross, chair, mathematics 
department, Medina High School, Medina, OH, and executive 
committee member, National Education Association.
    Whose names did I mispronounce? Do you want to--amazing. If 
you would raise your right hand, and I'll swear you in. Excuse 
me 1 second.
    [Witnesses sworn.]
    Mr. Shays. Thank you. For the record, we'll note that all 
four have responded in the affirmative. And I just would say, 
I'm going to invite Mr. Pappas to introduce the witness. We 
know you may have to get on your way, and we might invite that 
witness to speak first. Or we will. I just will say that when 
I--Ms. Cross, when I asked you if you were from Washington or 
Ohio, you were almost offended that I suggested you were from 
Washington.
    Ms. Cross. No.
    Mr. Shays. Just because you wanted me to know you were out 
in the field here. But I love Washington, and I love Ohio, as 
well, so it wasn't intended to mean anything. I just would like 
each witness to just tell me where they're from, and then we're 
going to invite Mr. Pappas to introduce you, Ms. Bryant.
    Ms. Bryant. I'm Anne Bryant, and the National School Boards 
Association is in Alexandria, VA.
    Mr. Shays. And this is your home in----
    Ms. Bryant. Yes.
    Ms. Saylor. I'm Joan Nesenkar Saylor. I'm from the Freehold 
Regional High School District in Monmouth County, NJ.
    Ms. Hayers. I'm Jannis Hayers from Electra, TX. And I 
represent the Texas Association of School Boards. I serve as 
president of that organization, and it's located in Austin, TX.
    Ms. Cross. And I'm Marilyn Cross from Medina, OH, and I 
represent the National Education Association.
    Mr. Shays. Ms. Hayers, I was in the Peace Corps with a 
couple that came from Dallas, and they had a wonderful accent 
like you do. And when I went to visit the Fijians, I was--we 
were all in the Fiji Islands. When I went to visit them, they 
were teaching there. I found all these Fijians who spoke 
English with a Dallas accent. It was really fun.
    Mr. Pappas.
    Mr. Pappas. Thank you, Mr. Chairman. It's my honor, and I 
appreciate your indulging me, to introduce Dr. Joan Saylor, who 
is from the Freehold Regional High School District, which is in 
the heart of my congressional district. She has had a long 
history of service in the education field in my home State of 
New Jersey. She started her career as a business education 
teacher in the Freehold Regional High School District, where 
she has returned after several years of working in other parts 
of the State.
    She currently serves as the assistant superintendent for 
business administration and board secretary and oversees the 
financial and maintenance operations of the schools' cafeteria 
and transportation services. Dr. Saylor has spoken extensively 
on the subject of school administration and funding, with a 
special emphasis on Superfund law and its effect on school 
districts.
    Dr. Saylor has been honored by the Charles F. Kettering 
Foundation's Institute for the Development of Educational 
Activities as an international fellow on three occasions. She 
clearly possesses a comprehensive understanding of the many 
perspectives of educators, having been certified as a school 
administrator, principal, supervisor, and teacher.
    Dr. Saylor specializes in school business administration 
and holds a Doctoral Degree of Education from Rutgers 
University in New Brunswick, NJ. It's a pleasure to welcome her 
and inform everyone that it's her birthday today.
    Mr. Shays. We are not going to sing to you.
    Mr. Pappas. Thank you, Mr. Chairman.
    Mr. Shays. You're probably really--or were you planning to 
do that? Why don't you begin?

  STATEMENTS OF JOAN SAYLOR, NEW JERSEY ASSOCIATION OF SCHOOL 
    BUSINESS OFFICIALS; ANNE L. BRYANT, EXECUTIVE DIRECTOR, 
   NATIONAL SCHOOL BOARDS ASSOCIATION; JANNIS HAYERS, TEXAS 
   ASSOCIATION OF SCHOOL BOARDS; AND MARILYN CROSS, NATIONAL 
                     EDUCATION ASSOCIATION

    Ms. Saylor. Yes. Thank you very much for that introduction. 
I certainly appreciate the opportunity to be before you this 
morning and discuss the financial impact of two particular 
Federal mandates. These are the Superfund law and the 
underground storage tank regulations.
    My experience with the Superfund law began when I received 
an official notification from the EPA that my school district 
was a potentially responsible party in the cleanup efforts at 
the Lone Pine Landfill Superfund site. The problems at the Lone 
Pine Landfill were discovered after there was a fire at the 
site in 1978. The investigation after the fire uncovered that 
approximately 50,000 drums of chemical waste, as well as 
millions of gallons of liquid waste, had been dumped at this 
landfill over a period of 20 years.
    Now, during that same timeframe, our school district, under 
contract with a trash hauler, had disposed of our trash from 
our offices and our schools. Due to the provision in Section 
7003 of the Resource Conservation and Recovery Act, that 
provision assumes that municipal solid waste is hazardous 
waste. Our school district had the same responsibility for 
cleanup as did companies that dumped toxic waste at the 
landfill.
    Upon analysis, it was determined that we had dumped 
approximately 1 percent of the waste that was at the landfill, 
and therefore, were responsible for 1 percent of the costs of 
the cleanup. Once the cleanup efforts began, we began receiving 
invoices. The latest share of the cost for our school district 
is $718,000 plus reopener costs. The reopener costs would be 
invoked if the site was not declared to be cleaned up 
sufficiently. If we wanted a total buyout from this particular 
site at this time, the cost to us would be $3.1 million.
    And to put that in perspective to the size of my operation, 
that's about 4 percent of our budget, or the cost of salary and 
benefits for 80 of our teachers.
    The work at the landfill has been extensive. It's entirely 
sealed in a clay cap, and the landfill is being cleaned up. As 
residents of that area, we are very pleased that this has taken 
place. However, we firmly believe that as a school district, we 
did not create this environmental nightmare, and we shouldn't 
be responsible for spending our education dollars to clean it 
up.
    The second mandate which has caused financial strain on our 
school district are the underground storage tank regulations. 
Our five high schools were built between 1925 and 1971. And 
during that time, the only heating source we really had was 
heating oil. Natural gas was not available in many of our rural 
communities. The communities continued to grow and we built 
additions to our schools. By 1990, we had approximately 1 
million square feet of school buildings and 10 very large 
underground storage tanks.
    The storage tank regulations required two separate actions 
on our part. First was retrofitting the existing tanks with all 
the safeguard features, such as corrosion protection, overfill 
protection, and other items. The second mandate was that we 
needed to get pollution liability insurance.
    Because the age of our storage tanks--they were all over 20 
years of age--the law assumed that by that age, the tanks would 
be leaking. Therefore, we were not allowed to retrofit them 
with the safeguards. But if we were going to continue to use 
heating oil, we would have to remove the tanks and replace them 
with new ones.
    The second item is that we learned that pollution liability 
insurance in the State of New Jersey was simply not available 
at the time. The only viable solution we had to comply with 
these regulations was a significant expenditure of funds. We 
converted all of the burners in the boilers to natural gas. And 
then we went through the process of digging up all our 
underground storage tanks and disposing of them.
    The cost to our district was $652,000. During that same 
school year, this is slightly more than the entire amount of 
money we spent on instructional materials for our students. 
Then, we dug up the old tanks and found out that none of them, 
including those up to 40 years of age, were leaking. The law 
required us to spend money on removing these tanks that were 
not endangering the environment.
    I believe that our school district should be responsible 
for maintaining the health and safety of our environment. I 
believe that we should be responsible for the pollution we 
cause. In the case of the Lone Pine Landfill, we properly 
disposed of our garbage in a responsible manner. We did not 
dispose of hazardous substances. We did not create the 
environmental nightmare that exists.
    We also caused no harm to the environment by maintaining 
and using our oil tanks, yet we were required to spend $652,000 
to remove them due to the assumption that they were 
environmentally unsafe. And we were also facing the $3 million 
liability at the Lone Pine Landfill.
    As a business official, I take my job very seriously, and I 
have the responsibility to ensure that our local property taxes 
that are raised for education and that are entrusted to me are 
spent in an effective and efficient manner for our students. We 
simply cannot afford to use these funds to abate potential 
environmental hazards or be responsible for hazards that we did 
not create as a district. Thank you very much.
    [The prepared statement of Ms. Saylor follows:]
    [GRAPHIC] [TIFF OMITTED] 45630.010
    
    [GRAPHIC] [TIFF OMITTED] 45630.011
    
    [GRAPHIC] [TIFF OMITTED] 45630.012
    
    [GRAPHIC] [TIFF OMITTED] 45630.013
    
    [GRAPHIC] [TIFF OMITTED] 45630.014
    
    [GRAPHIC] [TIFF OMITTED] 45630.015
    
    [GRAPHIC] [TIFF OMITTED] 45630.016
    
    Mr. Shays. Thank you very much.
    Ms. Bryant.
    Ms. Bryant. Yes. Good morning. I am Anne Bryant, executive 
director of the National School Boards Association. And you 
will be relieved to know I am not going to use the written 
testimony, but it has been introduced, and I'm going to 
abbreviate it for you.
    Mr. Shays. Let me say this to you. We only have four 
witnesses, and I'm happy to have you go beyond the timeframe, 
as well. We were thinking of canceling this meeting because 
there are a lot of markups--Members have markups with the tax 
bill and health care bill and other legislation that's moving 
forward because of the budget agreement--but decided not to. 
But we do have the flexibility of no panel after you. So don't 
feel rushed.
    Ms. Bryant. Thank you. I want to thank the subcommittee for 
holding this hearing today to really look at the impact of 
Federal mandates on schools.
    Congress passes many laws, and they serve specific needs. 
Unfortunately, the cost of individual mandates and their real 
impact on overall education programs is infrequently 
considered. The cumulative impact never is. The result is that 
we have mandates that have been created to protect children, 
but they are, in fact, stifling student learning.
    The Partnership for Children's Education is NSBA's Unfunded 
Federal Mandate and Regulatory Relief Project. It's our top 
legislative priority, because we believe that schools need to 
focus on their main mission.
    Mr. Shays. Would you say your top legislative priority 
again? I'm sorry. I was just writing something down. Just 
repeat what you just said, your top----
    Ms. Bryant. Sure. The Partnership for Children's Education 
is the name of the National School Board Association's Unfunded 
Federal Mandate and Regulatory Relief Project. It's our top 
legislative priority, because we believe that schools need to 
focus on their main mission, the education of students.
    Nationwide, it costs nearly $300 billion per year to 
educate the 45 million public school children. But too much of 
this money is being diverted to regulations and activities 
mandated but not paid for by the Federal Government. Too much 
high-powered time is being spent, as the Congresswoman said, 
filling out reports, too much constraint is being placed on 
classroom teachers, and too much opportunity for innovation is 
being lost.
    While there are dozens of mandates placed on schools, I 
will highlight just a few. The Individuals with Disabilities 
Education Act, IDEA, is an example of a specific mandate that 
schools have consistently identified as a huge cost problem. 
NSBA supports many of the provisions of the recently 
reauthorized law to provide a free, appropriate public 
education for all children with disabilities. Yet the cost is 
huge.
    One intensive study of nine school systems shows that 38 
cents of every new education dollar raised each year since 1967 
has been spent on IDEA compliance: 38 cents of every new 
dollar.
    While Congress says it supports the goals of the special 
education law, its refusal to fund its own mandate tells a 
different story. When Congress originally passed the law, it 
pledged to pay 40 percent of the annual cost of the special 
education mandate. Instead, the Federal Government pays only 7 
percent, leaving school districts to pay over $30 billion each 
year in excess educational costs from local and State 
resources. This year, Congress is $10 billion short of its own 
commitment.
    Mr. Shays. Ten percent short of the seven percent?
    Ms. Bryant. No, of the 10 percent short of the 40 percent.
    Mr. Shays. Yeah. OK.
    Ms. Bryant. $30 billion translates into more local property 
taxes and increases each year and----
    Mr. Shays. I'm sorry. You said $10 billion?
    Ms. Bryant. $10 billion short for this year.
    Mr. Shays. OK. Got you.
    Ms. Bryant. $30 billion translates into more local property 
taxes and tax increases and fewer educational programs for 
students who do not receive federally mandated services.
    While the special education mandate merits more 
congressional funding, there are other benefits where the 
benefits, costs--other mandates, excuse me, where the benefits, 
costs, and risks associated with mandates merit a second look.
    NSBA enthusiastically endorses accurate and understandable 
risk assessment practices. Unfortunately, Congress has been 
slow to respond, perhaps because it doesn't have to pay the 
price. The asbestos mandate is a case in point. The safety of 
our children is a very real concern for school board members. 
They do not want anything to harm the health of children that 
they work so hard to serve.
    However, in this area, fear and misinformation have taken 
precedence over sound science and risk assessment. The mandate 
was created in the 1970's in an understandable climate of 
panic. But for years now, the scientific data should have 
ameliorated both the panic and the mandate. There are two kinds 
of asbestos. One is dangerous, and one is not. Both fibers can 
be identified.
    Ninety-five percent of all asbestos in the United States is 
not dangerous. So far, no distinction is made, and, therefore, 
compliance with an unscientific law means asbestos removal has 
cost our Nation's schools more than $10 billion. And we are 
still removing and spending millions more. Schools are spending 
too many of their scarce education dollars chasing a phantom 
problem.
    The public schools of this country are turning to Congress 
for help. For years, school board members have told us that 
they are struggling under the heavy burden of Federal mandates. 
Some relate to education, and many others relate to school 
environment. NSBA wants to work with this and other committees 
to establish the real regulatory costs of mandates of public 
schools.
    NSBA is investing significant time and resources to present 
Congress with an assessment of the impact of Federal mandates 
on the ability to provide a world class education. We have 
contracted this year with an independent accounting firm to 
create and conduct a survey of the impact of unfunded mandates 
on schools. We will attempt to collect information about the 
total costs of compliance with mandates, including reporting 
responsibilities, personnel hours, inspection costs, among 
other fiscal and personnel impacts.
    This is not a study of the value of the mandates 
themselves, but of the costs imposed by the Federal Government 
on school budgets, local property taxpayers, and ultimately, 
the opportunity to invest in student learning.
    We want to thank the committee for taking the first step by 
asking the Government Accounting Office to initiate a study of 
the major issue. We need congressional leaders to evaluate 
their mandates, fund those that are worth keeping, and repeal 
those that are not. Give schools and the children we educate 
the opportunity to maximize every single dollar that your 
taxpayers raise for the world class education that the children 
in their communities deserve.
    I want to thank you for holding the hearing and for your 
support of our project, the Partnership for Children's 
Education. And as soon as all the panelists are through, I 
would be happy to answer questions.
    [The prepared statement of Ms. Bryant follows:]
    [GRAPHIC] [TIFF OMITTED] 45630.017
    
    [GRAPHIC] [TIFF OMITTED] 45630.018
    
    [GRAPHIC] [TIFF OMITTED] 45630.019
    
    [GRAPHIC] [TIFF OMITTED] 45630.020
    
    [GRAPHIC] [TIFF OMITTED] 45630.021
    
    [GRAPHIC] [TIFF OMITTED] 45630.022
    
    [GRAPHIC] [TIFF OMITTED] 45630.023
    
    [GRAPHIC] [TIFF OMITTED] 45630.024
    
    [GRAPHIC] [TIFF OMITTED] 45630.025
    
    [GRAPHIC] [TIFF OMITTED] 45630.026
    
    [GRAPHIC] [TIFF OMITTED] 45630.027
    
    [GRAPHIC] [TIFF OMITTED] 45630.028
    
    Mr. Shays. Thank you very much.
    Ms. Hayers.
    Ms. Hayers. Thank you. I am Jannis Hayers. I'm president of 
the Texas Association of School Boards. TASB is a nonprofit 
organization which represents currently every independent 
school district in the State of Texas, and that's about 1,050 
school districts. We receive no compensation as school board 
members in Texas. No Texas school board members are paid, and I 
don't receive compensation for serving as president of our 
State association.
    I'm honored to be here today to followup with what Anne has 
told you about NSBA's efforts to track Federal mandates. And 
I'm glad to be able to tell you about something that the Texas 
Association of School Boards has done in Texas that we call 
Mandate Watch. Mandate Watch began in 1989 in Texas, when the 
Association began to make an organized effort to track the cost 
of unfunded or underfunded mandates to Texas school districts.
    It's a way of challenging both State and Federal 
legislators to put their money where their mandates are in 
terms of helping us to spend our dollars for the education of 
children, rather than on unnecessary regulation.
    Congresswoman Granger's home town newspaper, the Fort Worth 
Star Telegram, probably said it best when one of their writers 
wrote, ``The legislature has developed a very bad habit of 
ordering school districts to carry out expensive programs but 
refusing to provide them the money to pay for them. That allows 
lawmakers to point with pride at their frugality while placing 
tremendous burdens on school districts.''
    And what ``No new taxes'' meant in Texas when the 
legislature went home was that there were going to be higher 
local property taxes to pay for the things that had been put 
into law without money to go along with them.
    The Texas Center for Educational Research, based on 
information reported by the Texas Education Agency's 1987-1988 
accountable cost studies, estimated that underfunded mandates 
represented approximately 20 percent of school districts' 
operating budgets at the time.
    The Mandate Watch campaign is multifaceted. Our staff 
members at TASB monitor legislative action, looking for changes 
that will require local school districts to do additional work 
for which no money follows. Between legislative sessions, they 
develop a book that outlines the costs, the estimated costs to 
districts of these things, and the book is updated and ready 
when the next legislature comes to town and in the hands of 
legislators.
    During legislative sessions, our staff people and local 
school board members working with the organization work to 
inform legislators of the costs of some of the programs that 
they're suggesting we do. And we really believe that we have 
begun to change the culture in Texas, because a lot of 
legislation has died or been amended in some way because of the 
recognition of the fact that it would be passing unfunded or 
underfunded mandates down to local property taxpayers.
    The media has joined and has been very helpful in helping 
us to do this, as the quote from the Fort Worth Star Telegram 
indicates. Newspapers in Texas and the media has helped us to 
get the word out that rising local property taxes have been 
primarily because of unfunded State and Federal mandates.
    Since the inception of the Mandate Watch campaign, we have 
changed things considerably. The first--some of the ways that 
they have been changed would be to make implementation 
optional, to pilot--to begin the change as a pilot program to 
see how it worked out. And some of the efforts of the 
legislature have turned toward actually finding State dollars 
to send with the legislation, so that local school property 
taxpayers are not responsible for having to pay for them.
    In the legislative session that just ended, the 75th 
legislature, which adjourned June 2 in Austin, the first piece 
of legislation on this subject passed that body, and it's 
similar to the Federal Unfunded Mandate Reform Act of 1995 in 
that following each session, an interagency work group will 
look at legislation that has passed to analyze and list the 
mandates that have been imposed on local school districts.
    There's not many teeth in it, really, but it is recognition 
of the fact that we have to be looking at these things if we're 
going to be aware of the costs that we're sending down. And 
it's certainly a step in the right direction, as is the Federal 
legislation.
    Federal mandates on Texas schools are very expensive. 
You've already heard some of the costs from some of the other 
witnesses. I just would like to say, special education is 
probably the most expensive Federal mandate.
    Information that we have from Dallas Independent School 
District indicates that they think in the current year, their 
percentage of their special education costs that were covered 
by their Federal dollars probably was about 9.32 percent of the 
cost of providing special education services; Houston ISD, 8.5 
percent; and Austin ISD, 9 percent. So this is far lower than 
the Federal intent in the early days of this legislation to 
provide about 40 percent of the cost from the Federal level to 
provide these services.
    In my own local school district, which is a small district 
with about 750 kids, about 65 professional staff members, we 
think we have probably spent $100,000 already in asbestos-
related cost simply in having inspections done. Our school 
buildings range in age from 1921 to 1961, and it's time to do 
something about some of them. And we know when we do that, 
we're going to have asbestos-related costs if the Federal 
mandates that are in place are not modified somewhat.
    In conclusion, I would just like to say that as I said, we 
really do think that we have begun to change the culture in 
Texas, because legislators are cognizant of the fact that what 
they ask us to do has a price tag attached. And they're working 
very seriously to try to find State dollars to do those things. 
And we're grateful for that.
    I hope that NSBA's Unfunded Mandate Program can be as 
successful, and we in Texas will certainly do everything we can 
to support it. Thank you for the opportunity to be here today.
    [The prepared statement of Ms. Hayers follows:]
    [GRAPHIC] [TIFF OMITTED] 45630.029
    
    [GRAPHIC] [TIFF OMITTED] 45630.030
    
    [GRAPHIC] [TIFF OMITTED] 45630.031
    
    [GRAPHIC] [TIFF OMITTED] 45630.032
    
    [GRAPHIC] [TIFF OMITTED] 45630.033
    
    [GRAPHIC] [TIFF OMITTED] 45630.034
    
    [GRAPHIC] [TIFF OMITTED] 45630.035
    
    Mr. Shays. Thank you. It's nice to have you here.
    Ms. Cross.
    Ms. Cross. Thank you. Mr. Chairman, thank you very much for 
the opportunity to testify. I am Marilyn Cross. I am a 
classroom teacher in the Ohio public schools, and I'm a member 
of the executive committee of the National Education 
Association.
    The NEA represents 2.3 million teachers and school 
employees who work in our Nation's public schools, vocational 
schools, colleges, and universities. We appreciate this 
opportunity to present our views on the impact of regulatory 
requirements on public schools and the flexibility available in 
Federal education programs.
    The mission of public education is to ensure quality 
educational opportunities for all students. This goal can best 
be accomplished in schools that are healthy and safe for 
children and for school employees and which have the necessary 
resources to help students meet high academic standards.
    NEA was actively involved in helping to develop and support 
passage of the flexibility provisions in the Elementary and 
Secondary Education Act and in the Federal Goals 2000 
legislation, which reduced paperwork and other burdens on 
schools. In reviewing regulatory mandates and flexibility 
provisions affecting public schools, our foremost concern must 
be, will this improve teaching and learning.
    Congress conducted such a review when it reauthorized the 
Elementary and Secondary Education Act and enacted Goals 2000 
legislation just 3 years ago. Today, schools have significant 
flexibility and discretion in implementing ESEA, Goals 2000, 
and other Federal education programs through a framework of 
programs and rules that strengthen accountability for Federal 
resources that apply rigorous standards and performance 
measures and encourage innovation at the State and local level.
    What local schools and their districts most need is 
increased access to technical assistance so that school 
administrators and personnel are aware of existing flexibility 
provisions and can utilize those that best serve the interests 
of their schools and their students. In any discussion of 
flexibility in Federal education programs, it is important to 
acknowledge that the term itself has different meanings for 
different individuals.
    NEA would oppose any effort, for example, to increase 
flexibility or to reduce burdensome paperwork by diluting or 
eliminating civil rights and health and safety requirements, by 
shifting education resources to other areas, or by altering 
State and local education governance. As the recent 
reauthorization of the Individuals With Disabilities Education 
Act demonstrates, considerable flexibility can be achieved 
without undermining the educational goals of a program or 
diverting education resources and accountability from State and 
local agencies.
    Federal regulations governing education programs serve an 
important purpose, to protect our children's health and safety 
and to ensure all students a quality education. Meeting these 
goals, however, requires a National investment in our students 
and schools.
    NEA strongly supported the inclusion of $5 billion in the 
budget resolution to leverage a total of $20 billion from 
States and communities to repair public school buildings. These 
resources would have made a tremendous difference to public 
schools and to their ability to comply with the Americans With 
Disabilities Act, as well as with the environmental hazards 
laws.
    I would like to highlight some of the flexibility options 
that already exist in major Federal elementary and secondary 
education programs. As you will see, considerable flexibility 
is available at the Federal level. The mandates on our public 
schools are imposed primarily by State and local governments. 
At the Federal level, most education programs provide 
flexibility to schools through waivers, streamlined 
applications, consolidated administrative funds, or school-wide 
programs.
    In fact, the U.S. Department of Education has eliminated 43 
percent of its regulations relating to elementary, secondary, 
vocational, and higher education, a total of 2,031 pages as of 
June 1, 1997. Of more than 400 waiver requests received by the 
U.S. Department of Education, 160 were unnecessary because the 
flexibility was already available. The requesting agencies were 
simply unaware of the flexibility provisions contained in the 
program.
    For example, the Elementary and Secondary Education Act is 
the bedrock of the Federal role in public elementary and 
secondary education. It provides schools with many options to 
reduce paperwork and administrative time. Under Title I, which 
is the largest of the ESEA programs serving disadvantaged 
students, the school-wide program has been expanded.
    Now, schools with more than 50 percent of student 
enrollment from low income families are not required to comply 
with cumbersome paperwork requirements that ensure Title I 
funds are spent solely for Title I eligible students. There do 
remain, however, strong accountability provisions.
    Funds in a school-wide program must be used to increase the 
amount and quality of learning time and provide an enriched 
curriculum for all children according to a comprehensive plan. 
And Title I no longer requires schools and districts to 
administer separate tests to Title I students. Achievement 
gains may be measured by the students' performance on State 
assessments that follow the progress of all students in the 
State.
    The Goals 2000 Act, enacted in 1993, is a model for bottom-
up reform and flexibility at the State and local level. The 
program is entirely voluntary, yet every State has submitted an 
application for funds. Not only are there no mandates for the 
standards, assessments, and local grants, but the process of 
applying for Goals 2000 funds is the least burdensome for any 
Federal program.
    There are no published regulations, and the application 
form itself is only four pages in the first year and in the 
second year, two pages. Further, the format and content of 
comprehensive State improvement plans is left to the State, so 
that any submission of additional papers is a matter of State 
and local discretion. The review and approval process, 
including the commitment of funds, usually takes less than 3 
weeks from the date of application.
    The School-to-Work Program contains flexibility provisions 
for creating State-wide school-to-work plans and State and 
local partnerships. They are designed to link with the 
provisions in Goals 2000 and to give State and local education 
agencies the flexibility to coordinate them as they deem 
appropriate.
    I would now like to describe some of the ways in which 
administrative flexibility and reduced paperwork provisions are 
implemented. State and local education agencies may submit a 
single application for funds from Goals 2000, School-to-Work, 
the Perkins Vocational and Applied Technology Education Act, 
and various other ESEA programs. The statute for each act 
outlines the administrative funds that may be set aside to run 
the programs. These funds may also be consolidated at the State 
and local level.
    School districts, with the approval of the State education 
agency, have some discretion in directing up to 5 percent of 
funds from one ESEA program to another, with the exception of 
Title I. Further, the U.S. Department of Education requires 
progress reports to be submitted every 2 or 3 years, rather 
than annually as was common before.
    Other broad-based coordination efforts to promote student 
learning have been created to give school districts more 
flexibility to care for their students. Title XI of the ESEA 
allows school districts to use up to 5 percent of their total 
ESEA funds, including Title I, to coordinate social and health 
services for students. In this way, schools and human service 
providers can work together to provide children with adequate 
nutrition and basic health care, improving students' ability to 
reach the high academic standards set by the State.
    Waivers are a relatively new area for education, and it is 
not yet clear what the benefits are to effective teaching and 
learning. There is no comprehensive study on the impact of 
waiver requests, approvals, or denials at this time. It is 
clear that many of the requests submitted are unnecessary, 
because the State and locality can accomplish their desired 
goals under current law. In the ESEA, the Goals 2000 Act, and 
School-To-Work Opportunities Act, there are a number of 
statutory and regulatory waivers available to State and local 
education agencies.
    As of March 10, 1997, the U.S. Department of Education 
reports it has considered 185 waiver requests and approved 151 
of them. Another 118 applicants learned they could implement 
their plans without a waiver. Some of this information is 
available on the Department's Internet site, but not every 
school or educator is connected to this technology.
    Publicizing information about these requests, including 
what requests are necessary and unnecessary under current law 
and what requests have been approved or rejected, would be 
helpful to educators and to administrators in gaining an 
understanding of current flexibility within Federal education 
programs and how school districts are availing themselves of 
these opportunities.
    In addition to waivers from the Federal level, Goals 2000 
includes a pilot experiment called Ed-Flex for 12 States. This 
is an experiment to determine if flexibility can be granted 
without reducing accountability or positive results for 
students. To participate, a State must have an approved Goals 
2000 State improvement plan in place. The State education 
agency, not the Federal education authority, may waive certain 
statutory and regulatory requirements in six specified Federal 
education programs. The State education agency must also have 
the authority to waive its own similar regulations.
    There is no evaluation yet on whether this Education 
Flexibility Program is related to improvements in student 
achievement or whether devolving the Federal waiver authority 
to the State education agency has a positive impact on 
accountability and results. The NEA welcomes a fair evaluation 
of this program and urges that no further expansion be made 
until such an evaluation can be reviewed by local educators.
    The NEA also supports Federal, State, and local 
requirements that regulate safe drinking water, asbestos 
exposure, educating children with disabilities, and other civil 
rights laws. These requirements not only enforce our moral 
obligation to our Nation's children, but in the long run, are 
cost-effective in reducing expensive litigation and life-long 
health care costs.
    Congress should continue to uphold regulations that protect 
the education, the safety, and the welfare of children and to 
pursue strategies to provide local schools and their districts 
with greater technical assistance in availing themselves of new 
flexibility provisions.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Cross follows:]
    [GRAPHIC] [TIFF OMITTED] 45630.036
    
    [GRAPHIC] [TIFF OMITTED] 45630.037
    
    [GRAPHIC] [TIFF OMITTED] 45630.038
    
    [GRAPHIC] [TIFF OMITTED] 45630.039
    
    [GRAPHIC] [TIFF OMITTED] 45630.040
    
    [GRAPHIC] [TIFF OMITTED] 45630.041
    
    [GRAPHIC] [TIFF OMITTED] 45630.042
    
    [GRAPHIC] [TIFF OMITTED] 45630.043
    
    [GRAPHIC] [TIFF OMITTED] 45630.044
    
    Mr. Shays. Thank you very much. We're ready to get into 
some questions and have a great dialog here. I note that in the 
beginning, we began with Ms. Saylor really talking about 
environmental issues like the Superfund and the oil tank. And, 
Ms. Bryant, you made reference, as well, to issues like 
asbestos.
    One of the things that I think you're pointing out is where 
laws in general may need to be dealt with, like with asbestos, 
you were talking about the $600,000 to remove the oil tanks in 
New Canaan High School, New Canaan, CT. They built the school 
for $10 million, and they spent almost $10 million to remove 
the asbestos a few years later. And we're not certain at all 
that the asbestos they removed was a threat to anyone.
    And I can say that having my daughter attend there, it 
just--and I went to speak at a Senate hearing on this very 
issue, and Members of Congress were reluctant in the Senate, 
reluctant to open that door on that issue and use any 
discernment as to what was a threat and what wasn't. We treated 
all bad, even though some isn't and some is. The part that's 
bad, though, can be very bad, and that we acknowledge.
    But it does strike me, if I'm just going to deal with 
environmental issues first, that if there is an environmental 
hazard, we're going to mandate that it not happen, and we're 
going to tell you it's not. I'm not sure we're going to come up 
with the money to pay for it. You're talking, it seems to me, 
again, about--with the tanks--or, excuse me, with the landfill, 
Ms. Saylor, about the issue of whether you were responsible.
    Again, this strikes me, the kind of two issues we're 
talking about here, you--businessmen and women come to us and 
homeowners come to us, as well. Should we call upon the deep 
pocket to have to pay the bill, or should it be the people 
responsible? And during the last 2 years, we really tried to 
change the law so that it was more not the deep pocket, but the 
people who were primarily responsible.
    Define to me when you think a mandate would be required, 
and not necessarily where we would have to pay the bill. There 
must be some. This may sound like a strange question to you, 
but where is a mandate legitimate? Ms. Bryant.
    Ms. Bryant. I'll use the example of asbestos. The purpose 
of the law was to make schools safe. Unfortunately, when the 
law was passed, it was based on a study that didn't distinguish 
between the two kinds of asbestos. I think it is absolutely 
fair to say when you are renovating a school that you go in and 
test whether the asbestos is the dangerous kind or what we call 
white asbestos.
    Then I think the school, if it is the dangerous kind--
although we think that most of the dangerous kind is in 
shipyards, not in schools--then it should be removed. But to 
treat it all the same and then say, as in your example in New 
Canaan, that the $10 million building has to go through a $10 
million renovation does not make sense today.
    Mr. Shays. I would agree. In other words, let's have a 
sensible law that gets at the real problem and doesn't require 
you to do something that really is wasteful. But in that case 
of asbestos, let's say the white kind, as you refer to it--and 
there's probably a more technical term--would you agree that 
the Federal Government would have every right to tell you or a 
State government would have every right to tell a local 
district that put this asbestos in a school, it needed to 
remove it and it needed to pay the bill?
    Ms. Bryant. I think that when it's the school building--and 
her example is quite different, so it moves to the different 
arena--when it's the school building, yes.
    Mr. Shays. Would you all agree with that, necessarily?
    Ms. Saylor. Yes.
    Mr. Shays. Texas, it's a little harder for you to--because 
I noticed in Texas, you even want to get rid of the copyright 
law. We could really have a little fun conversation here.
    Ms. Bryant. Like NEA, we would love to move the school 
construction bill.
    Ms. Hayers. Actually, the reference to the copyright bill 
was--that's simply one that we list in our list.
    Mr. Shays. In other words, you did some brainstorming, and 
you came up with a whole list. Yeah, I'm being a little 
facetious.
    Ms. Hayers. Perhaps an example from Texas would be----
    Mr. Shays. No, but this may be--I'm going to have you give 
a Texas example, but first off, would you--I want to know where 
we could agree a mandate is necessary. Would you agree that Tom 
Barrett and I might be very legitimate in telling you that you 
need to clean up a school that has dangerous asbestos?
    Ms. Hayers. I think we're all in agreement that the safety 
of our children should come first. And the Texas example goes 
directly to that.
    Mr. Shays. Right, and that the Federal Government might 
mandate you to if you chose not to? In other words, I'm just 
trying to establish a line where a mandate is good and where 
it's bad, because some mandates, I would tell you, would be 
very important. And I'm speaking as someone who wants to get 
rid of a lot of mandates. You don't want to admit that--it's a 
real struggle.
    Ms. Hayers. It's counter-cultural to Texans.
    Mr. Shays. It's counter-cultural. Maybe I shouldn't ask you 
that.
    Ms. Hayers. Well, actually, it's a fair question.
    Mr. Shays. OK.
    Ms. Hayers. And we do want to take care of our children. 
And yes, where health and safety is concerned, there are some 
legitimate areas in which school districts, as any other 
government, but school districts because we're dealing with the 
lives of our children, probably wouldn't have to be mandated 
to----
    Mr. Shays. Give me the Texas example you went with.
    Ms. Hayers. The Texas example from this session of the 
legislature was that a bill passed requiring--and I may not 
have all the specifics of this correct, but basically, 
requiring schools to have an inspection of the natural gas 
delivery system to the school prior to every school year. And 
we certainly did not go down and lobby against that. That's 
reasonable. There's no money attached to it. It costs a little 
bit to have that done, and we certainly did not oppose that.
    However, on some things that would have mandated--on a bill 
that would have mandated school districts to increase health 
insurance benefits, not just access to health insurance 
benefits to not just our teachers but to their dependents, with 
no recognition whatever of the cost to local districts, we did 
have to say, ``We can't afford to do that.''
    Mr. Shays. Now, was that the State?
    Ms. Hayers. That's at the State level.
    Mr. Shays. Yeah. But that's--OK. That's a good example. OK.
    Ms. Cross, you probably are more--this probably comes 
easier to you, to tell us where mandates might be more 
necessary. [Laughter.]
    Ms. Cross. Well, yes. I think--as they said in the 
testimony, we believe in a mandate, whether funded or not, we 
have concerns, as Ms. Bryant testified, in terms of--we have 
also proposed more funding for IDEA, because we believe 
handicapped students are not assigned proportionately to school 
districts, they are not assigned proportionately to States. 
It's an issue in terms of disabilities as a Federal issue, and 
we believe should have more Federal support. So we would 
believe that.
    But we believe, for example, that IDEA has been essential 
in changing--I can speak personally from seeing special 
education classes in the basements of school buildings to 
seeing students being worked with so that they have jobs. We 
used in our system--one year, one of our special education 
students began after graduation or after leaving school at a 
salary as a janitor in a pickle plant higher than his special 
education teacher made.
    So we're very pleased for our students that the IDEA and 
the others have improved. We do think there should be more 
Federal support for that one, but we believe that mandates in 
terms of student safety, student welfare, must be provided by 
the Federal Government, because it's easy to neglect them when 
money is always short.
    Mr. Shays. I'm going to call on Mr. Barrett, and then I'm 
going to come back and pursue a number of other questions. But 
I will say to you that the IDEA reform that passed and was 
signed into the law was probably an absolutely stunning example 
of a difficult issue in which Republicans and Democrats decided 
to sit down and depoliticize it and desensitize it, in one 
sense. And it got no coverage.
    And I went to a reporter, he said, ``No story here.'' I 
said, ``Why? No story here because we didn't fight like kids?'' 
And I don't think that the American people as a general rule 
realize that that was one issue where we, I think, found some 
common ground. So it would be interesting to see if we have 
really met the needs of some school districts who may feel that 
we still have too many mandates and too many requirements and 
so on. But we did make a significant step forward.
    Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman. And I appreciate your 
holding this hearing. I find myself in sort of a worked-up 
response just to the nature of the hearing. I served in the 
State legislature for 8\1/2\ years and was in Wisconsin before 
I was elected to Congress.
    Mr. Shays. And was what?
    Mr. Barrett. And I was in the State legislature in 
Wisconsin for 8\1/2\ years before I was elected to Congress. 
And many, many times during that 8\1/2\ years, I had local 
officials talk to me about unfunded mandates coming from the 
State level. And to be candid with you, I've heard many, many 
more complaints about the Federal Government than I ever did 
about the State government, but, frankly, far fewer complaints 
about the Federal Government's involvement in education and 
complaints about the Federal Government as it pertains to 
education.
    So I was somewhat surprised to see that this was a topic 
that generated enough attention, frankly, to have a hearing, 
although I trust my good friend Mr. Shays and know that he 
tries to do things in a good-faith manner. So I was looking 
through this, and I was thinking as a parent.
    And, Ms. Bryant, you referred in your written statement to 
the ``extreme panic,'' I think was the phrase that you used 
about the asbestos. As a father of a 4-year-old, a 3-year-old 
and a 4-month-old, I would be in extreme panic if I thought my 
school was going to have asbestos in it and could cause health 
damage to my kids.
    So I don't know that it's overreacting. And maybe in 
retrospect, all asbestos did not have to be removed, although 
I'm not--my understanding is that the EPA has not said that 
there is safe asbestos out there. And I would imagine if you 
are parents, if any of you are parents, you wouldn't want 
asbestos in your kids' school. And I think Mr. Shays' question 
is a very good question and it goes sort of to the heart of the 
whole debate on unfunded mandates.
    I always view laws that we like as laws and laws that we 
don't like as mandates. I mean, every law is a mandate. 
Everything we do here is a mandate, essentially, whenever we 
pass a law. But ``mandate'' is sort of the buzzword or the code 
word to say something that we don't like.
    I think if there was a law--and I saw a clip on the news 
the other night about a janitor in a school. And I don't know 
if it was near here or whether I saw it on the national news. 
But he was a convicted sex offender, and he murdered an 18-
year-old girl in the school during the day. I don't think it's 
inconceivable that you would have that State passing a law 
saying that you have to do a criminal background check on 
employees, all employees that are elected--or that are hired by 
a school district as a result of that.
    And, frankly, I wouldn't be shocked if you had a Federal 
law along the lines of a Megan's Law that said that school 
districts have to check the background of people so that you 
don't have--and this fellow was a convicted murdered that had 
been hired by a school district and murdered the girl. And 
that's an unfunded mandate. Right?
    Ms. Bryant. Well, if you want a response, I'm not going to 
respond to the janitor instance, because there's a whole--we 
could have a whole hearing about that. But I do think, going 
back to the asbestos, in fact, from the research we have done, 
there really has never been a study that says that the white 
asbestos, or chrysotile, is dangerous.
    So I think when I referred to the word ``panic,'' it is--I 
agree. I'm a parent, and my kid went to a public school. And I 
would not want my child exposed to a harmful material. But now, 
I'm sitting in a different chair. I'm still the parent, but I'm 
hearing from the school districts who literally have fewer 
dollars today to just throw out into education.
    And the cost, as the chairman mentioned, of having to 
remove what is not dangerous asbestos just because of the law 
means that we're not putting technology into those classrooms, 
we are not buying more textbooks, we are not paying teachers 
what they deserve to be paid. So it's a balancing act.
    And I think what we're asking as the National School Boards 
Association, not to undo the law, but let's look at the risk-
benefit. Let's look at the cost. Let's look at the cost over 
the cumulated years of a law that was passed in good faith 
then, but the scientific survey that should have informed it 
wasn't a part of the law.
    Mr. Barrett. And I don't disagree with you, but we're 
dealing now with the luxury of hindsight. And you're correct. 
You're sitting in a position now----
    Ms. Bryant. That's right. But hindsight makes us smarter, 
so we ought to act smarter.
    Mr. Barrett. But I don't think that--but the notion here is 
whether we should be as a Federal Government coming in and 
taking action. And I think it's a far different analysis that's 
done at the time when we first hear about these problems, to 
say, ``Well, let's just study it more.'' My--and I wasn't in 
Congress, so I'm not--I don't have a dog in this race, so I 
don't----
    Mr. Shays. Would the gentleman yield?
    Mr. Barrett. Yeah.
    Mr. Shays. Yeah. The reason why we're having this hearing, 
so it's really--I'm just delighted that you're kind of 
introducing this conversation and that we can really have a 
dialog about it--is, what mandates are there that may have made 
sense, for instance, that may need to be adjusted. I mean, so 
that's really--and what we have asked the Inspector General to 
do since--I don't want to get you too excited--the GAO to do is 
to do a study to look at mandates and just say, ``Well, you 
know, are they accomplishing what we intend them to do, or not, 
and should we revisit?''
    And, for instance, we're almost reluctant to revisit the 
asbestos law. So the simpler thing is just leave it there and 
let them do it, instead of having to force ourselves to look at 
it and say, ``This is good, and this is bad.'' Because in some 
cases, we may be passing judgment on what we did in the past 
and say it was a mistake. And the other is, we may not want to 
take the chance, however remote--that we don't want to change 
it and then screw it up. So----
    Mr. Barrett. I don't disagree with you. I mean, I think it 
makes sense to look at it, in hindsight. But if you--again, 
having not been here in 1989 whenever the law was passed, I 
don't feel this dying need to support something because I 
didn't vote for it, so it's not like people are criticizing me 
personally.
    But I think that it was legitimate for Congress to respond 
that way, just as I think if Congress responds and says, 
``Well, we don't want lead in our drinking water in schools,'' 
I mean, that's one that we may have hit a home run on. And I 
don't think that it's to say that we have identified that 
problem and it's an unfunded mandate. It's still a real issue. 
And I guess the decision or the discussion here is whether we 
think it's appropriate for the Federal Government to come in at 
certain points and do that.
    I, again, personally think that it is. And I think that--I 
guess the question that I was just going at is, is the thrust 
of what you're saying, especially the people that are 
complaining about the unfunded mandates--and let's sort of 
switch gears to the kids with disabilities--are you saying, 
``Get out. Get out of our hair,'' or are you saying, ``Give us 
more money''?
    Ms. Bryant. No. On the IDEA, we are not saying that. In 
fact, many of us at this table worked on the reauthorization of 
that bill. We are saying on IDEA, now that you've passed an 
even stronger law in many cases, the Federal Government 
deserves to help out more in the cost of IDEA, that it was 
passed with an understanding of a 40 percent help from 
Congress, and it's now 7 percent.
    We're saying, if you're going to have a strong law like 
that which helps children with disabilities, then you owe 
States and school districts the money to support that.
    Mr. Barrett. But I think--and this is sort of inside 
baseball, but since you're involved with--you throw out the 
word ``unfunded mandate.'' You're saying, ``Don't do it.'' 
That's what you're saying to me. You're saying, ``Don't tell me 
to do this.'' If you're saying--and that, frankly, plays to my 
good friend, Mr. Shays, and the Republican side. If you're 
saying, ``Pay for it,'' you're talking about Federal spending, 
and then that's Democrat.
    So I don't know where you're coming from. And I don't know 
if it makes any difference where you're coming from, but I 
think that as we talk about this, you're moving in different 
directions.
    Ms. Bryant. No.
    Mr. Barrett. If you're saying ``unfunded mandate,'' you're 
saying to me, ``Drop the program.'' It's a far different issue 
to say, ``This is a legitimate program. Kids with disabilities 
should receive a fair education, and the Federal Government has 
a responsibility.'' And I don't--and again, I don't know what 
you're--if you've got only one punch, which punch do you want 
to throw?
    Ms. Bryant. With all due respect, each law is different. 
And just as you have within IDEA some very important issues 
which need funding, I will respond differently to that than I 
will from looking in hindsight at an asbestos law which makes 
sense no longer. So I have to be honest with you.
    I am not coming from two different places. I am addressing 
very specific laws and requesting a study be done to look at 
the impact of those laws on school districts. That's why we're 
having this hearing. That's why your committee asked the GAO 
for a study. That's why we are committing precious dollars from 
our funds from the National School Boards Association to study 
this, to make sure that we are doing the right thing and to 
advise Congress if there need to be changes.
    Mr. Barrett. And can I ask one more question?
    Mr. Shays. We have time.
    Mr. Barrett. I think Ms. Hayers, I think that you were 
talking about a reference from the Fort Worth newspaper, and it 
made reference to the legislature, and I assume there it was 
talking about----
    Ms. Hayers. The State legislature, yes.
    Mr. Barrett. The State legislature. And, again, that----
    Ms. Hayers. In 1989.
    Mr. Barrett. And that's more consistent with my experience, 
that those guys are much worse than we are when it comes to 
this stuff. [Laughter.]
    Let's call a spade a spade here, that they're the ones that 
are doing all this terrible stuff. But you did mention several 
programs that, again, that sort of jumped out at me. I think 
that it was in your testimony. For example, unemployment 
compensation, COBRA?
    Ms. Hayers. Yes. The written list there is simply a written 
list of--I referenced the document that our association does 
biannually, and we simply list the things that we see that are 
passing costs down to local districts. And so those are some of 
the things that are referenced in there.
    Mr. Barrett. So are you saying----
    Ms. Hayers. We're actually listing things that--over which 
we have no control for which there is a local school board 
cost.
    Mr. Barrett. And are you saying, then, or suggesting that 
the Federal Government should have an exemption so that school 
boards are not liable for COBRA or unemployment compensation?
    Ms. Hayers. We need local taxpayers to understand that all 
of their money is not--you know, when taxes go up, it's not 
just because we like to raise taxes. There are some legitimate 
reasons here. We have some things over which we really don't 
have any local control that we have some responsibility for 
paying the bills on.
    And basically, as those things--somebody else tells us to 
do that, and no money flows with it, then the only place for 
the dollars to come from is from local property taxes. And it's 
just honest and accountable.
    Mr. Barrett. I understand that. And I understand where you 
can make us the fall guy in it. But my basic question is, are 
you saying, ``We don't want to be covered by COBRA''? Are you 
saying, ``We don't want to be covered by unemployment 
compensation''?
    Ms. Hayers. No. We have--and the costs are not huge, but 
they are costs that we have and that we account for in our 
document that we show to legislators and is available for our 
members to use in their communities.
    Mr. Barrett. Have any--again, I'm somewhat surprised in 
that I don't think of COBRA as being a law that many employees 
of school districts take advantage of, I mean, because it 
basically occurs after a person is laid off.
    Ms. Hayers. Right.
    Mr. Barrett. In Texas, are there a lot of school employees 
that have taken advantage of COBRA?
    Ms. Hayers. I can't answer that. I really don't know. And, 
of course, it's the employees' money. It's simply an 
administrative matter. But school district administrative 
offices might have some responsibility to do that, those 
administrative functions.
    Mr. Barrett. Thank you. Appreciate that.
    Mr. Shays. Before calling Mr. Kucinich, I think what we're 
really going to try to identify is what are mandates that we 
would say are good, what are mandates we would say are bad or 
need to be changed or modified, what are mandates that we 
really should be paying for in the Federal Government. Because 
there's some things that we might say--you know, I hope that's 
one of the dialogs we have in the course of this.
    There are things that we happen as Members of Congress to 
think are great for society, but we then say that another level 
of government has to pay for it. And so that will--and I think 
that's, frankly, very important for all of us to get into on 
both sides. I mean, I can--well, we'll have lots of fun on this 
issue.
    Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Mr. Shays. I will say for the record, both of us were State 
legislators, I was for 13 years and you for 8, and we had the 
same issue of mandates when we were there, and you served on 
the local level.
    Mr. Kucinich. Actually, I was in the State senate, as well.
    Mr. Shays. So you served on all three.
    Mr. Kucinich. Right.
    Mr. Barrett. He has caused problems at every level. 
[Laughter.]
    Mr. Shays. Literally.
    Mr. Kucinich. And I want to continue my reputation here 
this afternoon. I want to first of all indicate that I had 10 
recorded votes and a markup in the Education and Work Force 
Committee, so it prevented me from being here to hear your 
testimony. But in the time that Mr. Barrett was questioning 
you, I read your testimony.
    And I would like to just make a couple observations. I 
would hope that as you get into these issues, you would look at 
them from the standpoint, first of all, of some general 
organizing principles about which education--for which 
education exists. Ostensibly, it exists to elevate the mind and 
improve the lot of--and enable people to improve their lot in 
this society, to improve their own social and economic 
conditions, to give people an opportunity to lift themselves up 
and effect kind of leading forth.
    We also understand that government exists to set the 
priorities in the society. I would hope to see education be a 
priority at all levels of government. Therefore, educators 
wouldn't be vexed with questions of whether or not they could 
meet their needs and, therefore, get into these unlimited 
debates over whether or not you meet your needs best by 
limiting unemployment compensation benefits, by limiting 
compliance with the ADA, by limiting asbestos removal, by 
limiting compliance with the Rehabilitation Act.
    In my view, we shouldn't even be getting into that level of 
discussion. In a society which has so much wealth as ours does 
have, if we place the highest priority on education, as I 
believe it should be, these debates would never occur.
    Mr. Shays. What I would like to do is just see if we can 
start to categorize somewhat. And I would like to ask each of 
you. I do think that all of us agree that some mandates are 
required. And then the issue is, when should the Federal 
Government provide the funds to pay for it and when shouldn't 
we have to.
    And your point about opportunity costs, Ms. Bryant, is the 
concept if you do one thing, you can't do something else, is 
one of the reasons why we're debating this. When New Canaan 
High School spent $10 million on asbestos that may not have 
been necessary to remove, it literally cut things out of its 
education budget to pay for it.
    But I do want to just establish again, it seems to me on 
health issues, in particular, environmental issues, if the 
program is necessary and you were the cause of the problem and 
you are the cause of the solution, we're going to tell you to 
do it.
    When it gets into an issue like IDEA, Ms. Cross, let me ask 
you, when is it a Federal responsibility to pay the cost, and 
when is it a local or State? Let's agree that we think 
nationwide, we should have a more unified program on 
disabilities and children with special needs. When is it our 
requirement to come up with the dollars, and when is it the 
requirement of the State or local government?
    Ms. Cross. This is a very difficult issue, because it 
involves a whole lot of things, including facilities and so 
forth. I mean, it has got a lot of----
    Mr. Shays. You don't have to give a definitive, but give me 
some general----
    Ms. Cross. Right. I think the issue, we would say, in terms 
of the Federal support on a mandate is that this issue falls 
very unevenly on school districts. There is not an even 
distribution of individuals with disabilities in every school 
district in the country.
    Mr. Shays. Where do they tend to fall?
    Ms. Cross. They tend to be in urban districts. But 
disproportionately, the cost for a very small rural district 
which even has one or two is disproportionately more than for a 
larger district that can provide the education, provide 
something that serves more people.
    Mr. Shays. You know where we got our biggest complaint on 
IDEA?
    Ms. Cross. Which one?
    Mr. Shays. I represent--well, you wouldn't know, but let me 
just say it to you. I represent three cities and seven suburban 
communities. Greenwich, CT, which is probably one of the 
wealthiest communities in the country, and New Canaan, CT, one 
of the wealthiest.
    Parents, particularly in Greenwich, were suing the school 
districts, getting the school districts to pay because, as we 
defined it, it wasn't--whereas all students were to get a very 
good education, IDEA basically said they were to get an 
excellent education, so it set a different standard.
    They were able to prove in court that students should be 
moved to Boston, to Philadelphia, anywhere. And so we didn't 
have the big problem in urban areas. Our biggest complaints 
were in our suburbs.
    Ms. Cross. Right. Well, that's a second part.
    Mr. Shays. OK.
    Ms. Cross. I think the initial costs and the problems of 
dealing with it, the disproportionate number of students are in 
urbans, and it has a disproportionate effect on the budget of a 
small school district if you have a severely disabled student 
that requires--in the suburbs and in the other places, we have 
had the same issue of the use of IDEA to litigate very, very 
expensive solutions. I think--I guess the question we started 
with----
    Mr. Shays. We may have resolved that issue.
    Ms. Cross. Yeah. I think the question, however, you wanted 
to solve is, there isn't a proportionate representation of 
these students in individual school districts, so that 
responsibility of that school district to provide for those 
students is in no way related to the wealth of the community or 
to anything else in the community. If anything, you would find 
a higher----
    Mr. Shays. So that would justify the Federal expense?
    Ms. Cross. Right. You would find a higher percentage of the 
disabled in a community perhaps with a lower socioeconomic 
background and status. So it seems to me that as a citizen of 
the country, it's a Federal responsibility to handle those 
exceptions that are not related to the local community. And 
that's our rationale for saying that IDEA education needs more 
Federal support than it has gotten.
    And I think that would be a general principle if we would 
take any mandate. If the mandate has a disproportionate effect 
on communities, particularly those who already have lower 
resources, there is an obligation, because it's a mandate 
because you're a citizen of this country, there is an 
obligation to provide support to those other governmental 
agencies that will be in the business of actually doing the 
work.
    Ms. Bryant. We distribute Title I based on need. I mean, I 
think I would agree with Marilyn that the disproportionate 
impact of poverty is something that Congress has said is 
important.
    Mr. Shays. Any other comments from either of you?
    [No response.]
    Mr. Shays. There's a general concept that a higher level of 
government steps in when you have a spillover effect. For 
instance, if in the Connecticut River in Connecticut, a 
business is polluting, it takes relatively clean water, and at 
the end, it dumps the dirty water but it dumps it downstream to 
where the business is, it gets the clean water and it gives out 
dirty water, it has passed on its costs to all the communities 
down below.
    So the State would say to that business, ``If New Jersey 
and New York are polluting the air but it blows away from them, 
prevailing winds''--and, therefore, they don't feel its cost, 
but Connecticut does, the Federal Government steps in. There's 
a spillover effect, so we in Connecticut are basically asking 
the Federal Government to not let those States pollute.
    When we first got into education issues, we basically said 
as an example, ``We will step in because Mississippi''--and you 
know what? I'm sorry. Mississippi is always used, and no longer 
deserves to be used the way it is. But a particular State may 
not have spent the resources on education, but those children 
grow up, end up living in Chicago or New York or somewhere 
else, and then become a cost if they're not as well-educated as 
the rest. So we have justified that.
    But tell me an example without question of one or two 
mandates that you think are totally inappropriate. And then I 
would like Mr. Barrett maybe to jump in, as well, and see if we 
can have a little bit of a dialog on that. Do you have a few 
more minutes?
    Mr. Barrett. Sure.
    Mr. Shays. Give me some examples that you would call--if we 
are going to have the mandate, we should come up with the 
dollars. See, I would think, Ms. Cross, you would say you want 
the mandate one way or the other, ``but we do think you should 
come up with the money. But if you're not going to come up with 
the money, we still want the mandate.''
    I would think that some of you might say, ``We don't want 
the mandate, period.'' And some of you would say, ``We want the 
mandate only if you come up with the money.'' So I think we 
probably have three levels within this room here. Do any of you 
want to just jump in and tell me. You've mentioned one or two, 
but--that's not environmental, I guess, is what I'm--something 
educational. Yeah. What were you going to say?
    Ms. Bryant. Oh, mine was related to environment.
    Mr. Shays. See, one of the problems is, when you start to 
deal with the environmental, you're really asking for a 
different standard, because we said to the private sector they 
have got to clean up. And yet you're saying, ``Well, not to a 
local government.''
    And my view would be, if we're asking--we may want to 
revisit the law in general, but we're not going to carve out a 
special dispensation to--for instance, Ms. Saylor, I would say 
that we need to--if there's a problem with you taking out a 
tank that shouldn't be taken out, that's dumb.
    But I will tell you this. We're not going to let you 
pollute the environment, and we're going to step in. And we're 
going to say that to the private sector, as well. And we're not 
going to say because you're a municipality, you don't have to 
do it. So I guess what I'm looking for is a mandate or two that 
you think we could have an interesting dialog to help clarify 
this issue.
    Ms. Bryant. I can't think of one offhand, which is the best 
news of all. Because a lot of mandates, as we have all said are 
State-generated, sometimes based on the Federal. But when we 
look at what the Federal Government does about education, we 
all know that it has less to do with local education than many 
other countries.
    We have a smaller percentage of laws and funding from the 
Federal Government to local education than many, many 
countries. So I guess the good news is, we aren't sitting here 
listing 10 laws that we think are totally irrelevant.
    Mr. Shays. Would one of the interests that you have be that 
if we provide a mandate, that you want more flexibility in how 
you may administer the mandate?
    Ms. Bryant. Absolutely. I think Marilyn's testimony around 
Ed-Flex is a wonderful example. It happens to be only the 
Department of Education. It happens to be only 12 States. But 
if we could have that across the board on EPA and HHS, that's a 
good model.
    Ms. Saylor. For example, if we had some flexibility with 
the underground storage tanks, if we could have tested and 
proven that we were not causing an environmental problem, 
perhaps then we would not have had to go through the expense of 
converting to natural gas and getting rid of our tanks.
    We tested our tanks on a regular basis because we were 
concerned about them leaking, knowing the problems that that 
could cause. But we weren't given the opportunity to prove that 
we weren't creating the problem. We had to go through the 
expense of removing them. There was not a choice.
    Mr. Shays. What surprises me is, you could do a compression 
test, I think, and know if it was keeping its pressure. So it 
is surprising. And we do have a system where you can fill them 
up with foam. So it is--but I would make the argument in the 
case that you outlined that I would want that same law to apply 
to you and to business the same.
    Ms. Saylor. Yes. I wasn't--I was not looking to be excused 
from causing the problem. It's either when I am not causing an 
environmental problem or, in the case of the Superfund site, I 
have trouble equating the trash that we have disposed of with 
benzene and chlorobenzene and other types of chemicals.
    Mr. Shays. If none of you have an example now, if you could 
maybe submit something for our record, because we are going to 
be having a series of hearings. But, for instance, even your 
concept about the example of Megan's Law or another--I can take 
New York City or some other cities. We actually do what we do 
when you walk into the State capitol here. You really have to 
go through a metal detector.
    Now, it would be inane for us to pass a law that would 
require all schools around the country to have metal detectors. 
But I bet there are some examples of where we have done it in 
other areas, where we have passed a certain kind of law that 
may work in a particular setting and simply may not work. Maybe 
this is an example of where we needed to have a more rural 
school district come in and say, ``You know, here some of what 
you're requiring just simply doesn't apply,'' and it may apply. 
And that's where we need the flexibility.
    So I guess what I'm trying to do is set up some kind of 
grounds for our next hearing. You've launched it. One is, the 
good mandate, the mandate that may not be good, the mandate 
that may be good but you need to pay for it, and then the 
mandate where we simply need flexibility.
    And I will just say to the committee--and maybe we can 
start to begin to categorize what kind of mandate might be 
necessary to get--I mean, we also have issues that deal with 
grants. They aren't mandates, because you don't have to accept 
the grant, but it does then deal with the issue of flexibility.
    Bridgeport, CT, went bankrupt. It closed its parks. It 
applied for a number of grants. One of the grants was to 
beautify one of its parks, which it's closed. So it took the 
money and beautified a closed park because it wasn't going to 
not use the money, whereas if we had the flexibility, we would 
have taken that money and operated a recreation program in the 
parks that were still open. That's kind of what I mean.
    Do you have any comment? And we'll just close up here.
    Ms. Hayers. Well, if I could interject. Flexibility is such 
an important part of this. One size just doesn't fit all. And 
if that's true in a State the size of Texas, how much more true 
is it in the United States of America, where communities vary 
so differently from size to geography, population density, when 
you're miles and miles and miles and miles from any other 
commercial or educational or any other kind of endeavor.
    You know, there are lots of places in this country that are 
a long way from everyplace else. And what is appropriate in an 
urban area may not be appropriate in the vast, open spaces in 
this country. And so that kind of flexibility is very 
important.
    Mr. Shays. Mr. Barrett.
    Mr. Barrett. I would like to go back to the disability 
issue, or the kids in that program. And Ms. Cross, you said 
that those kids are--I think you said primarily or 
disproportionately may be found in urban districts?
    Ms. Cross. In urban districts.
    Mr. Barrett. Is that your experience in Texas?
    Ms. Hayers. I'm sorry?
    Mr. Barrett. Are the kids with disabilities or more special 
needs, are they disproportionately found more in urban areas in 
Texas?
    Ms. Hayers. I think it has more to do with the 
socioeconomic level than it does population.
    Mr. Barrett. And your experience?
    Ms. Saylor. Yes, it would be.
    Mr. Barrett. I'm sorry. What State are you from?
    Ms. Saylor. New Jersey.
    Mr. Barrett. New Jersey? OK. And----
    Ms. Bryant. Yes, and I think nationwide, it is true that 
more urban centers who have poor kids who come to school with 
health-related problems are labeled, and correctly so--
sometimes, not correctly so. I don't know if you're aware that 
there's a study being commissioned to look at the greater 
proportion of African-American students who are labeled 
``special education'' and African-American males, specifically.
    So I think there are some complex issues behind it. But in 
general, yes, there are more--there's a greater proportion of 
special education students in urban areas.
    Mr. Barrett. And these schools, I would say generally, are 
the ones that are criticized for the lack of performance? This 
is, again, urban--I represent Milwaukee. The Milwaukee school 
district is oftentimes criticized.
    Ms. Bryant. Sometimes, appropriately; and sometimes, not.
    Mr. Barrett. Sometimes, appropriate; sometimes, not. What 
I'm driving at is the criticisms of these school districts' 
inefficiencies, or alleged inefficiencies, sometimes accurate, 
sometimes not and the difficult burden that we're placing on 
these school districts and how to deal with them.
    I oftentimes talk to people in my area who talk about the 
spending--again, the Milwaukee public school district, say they 
waste too much money. And I think, ``Well, wait a minute. If 
we're dealing with all these kids with special needs, our costs 
are higher.'' And my experience is, a lot of the suburban 
school districts that have a small percentage of kids with 
special needs can simply use busing programs or other programs 
to get those kids into the urban school districts.
    Ms. Bryant. That's correct.
    Mr. Barrett. And then they point out how much better the 
education is, blah, blah, blah. And it comes down to the 
spending per student, of course. And what I find is that 
there's--that they say, ``Well, it doesn't matter how much you 
spend per student.''
    And I hear this oftentimes. And again, a lot of these are 
friends of mine whose kids go to expensive school districts. 
And I scratch my head a little bit, and I think, ``Well, if 
they're spending $12,000 on your kid and they're spending 
$7,000 on my kid and you're patting me on the head saying it 
doesn't make any difference how much money we spend per child, 
why don't we spend the same amount?'' But I find that argument 
always coming from someone who's spending more on their child 
than the school district I'm in is spending on mine.
    And I view this as a--and I agree. I agree with the 
socioeconomic factors. If you have a school district that's 
predominantly composed of children of college professors, those 
kids are going to do better on SAT tests as a group than if you 
have a lower socioeconomic class. But my concern as we have 
looked at the future of this country--and George Bush was the 
education President. Bill Clinton wants to leave his legacy in 
education, as we see through this budget proposal.
    And at the same time, what we're doing is we're building, I 
think, a scenario where you're going like this. Do you see that 
spending--and maybe go down the line here. Ms. Cross, do you 
see that spending as starting to come back together, or do you 
see that as getting worse?
    Ms. Cross. Well, I live in the State that has a Supreme 
Court decision this January that ruled that our spending was 
inequitable. We do have districts that spend up to 14,000 per 
pupil, and I will say that in those districts, it's over 90 
percent, 93 percent from local taxpayers who raised that money 
who believe in education for their children who send 99 percent 
of their children to colleges, to school districts that have 
maybe $3,000 to spend and who also have buildings that are very 
decrepit because there's no property wealth, no industry.
    So we see in our State that the discrepancies are getting 
wider and wider. And the difficulty, I think, is going to be 
that we have created a world in which the wealth has moved to 
the suburban rings around the urbans, that rural districts and 
inner city districts don't have property wealth. They don't 
have the ability, and they don't have the communities that 
already have the education who understand the importance of it.
    So we're seeing that in our State, as long as we continue 
our reliance on local property taxes, that this discrepancy is 
going to increase, that we're going to see the school districts 
where the educated--the suburban districts where the educated 
parents already live putting more and more of their local 
wealth into schools, that the poorest districts that don't--
it's a bigger percentage of their income to pay for a school in 
the first place.
    They're not putting the extra money in, that unless we 
accept education as a State and Federal responsibility, we're 
going to see these increasing changes and very, very--much more 
poverty in the very rural and the very inner city and much more 
wealth in the suburban districts. Yes, I agree with you.
    Mr. Barrett. Ms. Hayers.
    Ms. Hayers. Well, Texas has also struggled with the equity 
issue over many years, and we----
    Mr. Barrett. I can remember in 1972 the Supreme Court of 
San Antonio v. Rodriguez.
    Ms. Hayers. Right. And we presently are operating under a 
system that our State Supreme Court has ruled constitutional 
under the Texas Constitution.
    Mr. Barrett. Constitutional?
    Ms. Hayers. Constitutional. And so--but these are struggles 
that went on for a long time in Texas, and we think we're--
while we would still like to see the State shoulder a little 
bit bigger of the portion of the responsibility because of the 
impact on local property tax rates, we think we have 
basically--you know, we're in pretty good shape on that issue 
in Texas. But that's going to be a State-by-State assessment.
    Mr. Barrett. Do you happen to know what the spending 
difference is? You talked about $14,000 versus $3,000. Do you 
know what the range is in Texas?
    Ms. Hayers. I want to say in the law that actually passed 
court muster, there was a--and I don't know how this all played 
out in reality, but the test was about a $600 per student----
    Mr. Barrett. Difference?
    Ms. Hayers [continuing]. Discrepancy.
    Mr. Barrett. Wow.
    Ms. Saylor. In New Jersey, we have been operating under an 
unconstitutional funding formula for a number of years. We have 
a new funding law which was now, again, declared not 
constitutional for the State of New Jersey. The courts have 
ordered that the 28 poorest school districts will now receive 
the same amount of money per pupil as do the richest school 
districts in the State of New Jersey.
    I come from a middle class school district. We are the 
lowest-spending high school district in the State of New 
Jersey, and our students are not suffering because of that. We 
still have--approximately 92 percent of our students are going 
on to advanced education. They score above the State average on 
SATs.
    So I am from the--there is a level of spending that you 
need for education, but simply taking additional money as we're 
going to do in New Jersey and giving it to the 28 poorest 
school districts so they can spend as much as the wealthiest 
districts I do not believe is the solution to the educational 
problems.
    Mr. Barrett. I'm sorry. Maybe I'm confused. Your school 
district currently spends the lowest per student?
    Ms. Saylor. The lowest for a high school district in the 
State of New Jersey, yes, our per pupil costs. And we're very 
proud of that, because we're showing a couple things. First of 
all, we have a larger school district--we have 7,500 students 
in five high schools--so we do have some economies of scale 
there where we have a lot of very, very small districts in our 
State.
    There is a level of funding that is needed so that you have 
technology in classrooms, so that you have reasonable class 
size, so that you have a good teaching staff. But just giving--
if you gave our school districts millions and millions of more 
dollars, our SAT scores are not going to increase that much 
more.
    Yes, we could put in more technology and have some more 
advanced programs, but money in itself is not going to help, 
and I don't think money going to some of our poorer school 
districts is going to be the solution, unless they totally 
rework how the education process starts.
    In these poorer school districts, where a 5-year-old 
student starts school and has not had any of the opportunities 
before the age of 5 for them to catch up, money is not the 
solution. There has to be some other ways to reach the parents 
and the community groups prior to those children going to 
school.
    The 5-year-olds that come into our school districts have 
had many experiences, have traveled, have been read to, have 
parents who have enrolled them in these nursery schools and 
private day care centers and have had so many educational 
opportunities by the time they are 5 years old, where that 
doesn't happen in some of our poorer school districts.
    Mr. Barrett. And again, I apologize if I'm missing the 
point here.
    Ms. Saylor. Money----
    Mr. Barrett. Are you among the 28 schools that----
    Ms. Saylor. No, I'm not, no. No, because we're a middle 
class district.
    Mr. Barrett. And of the 20 districts that do benefit, 
though, what is----
    Ms. Saylor. They're basically urban centers.
    Mr. Barrett. But again, you said that your spending per 
student was----
    Ms. Saylor. My spending per student?
    Mr. Barrett. Yes.
    Ms. Saylor. Is just over $7,000 per pupil, and it's the 
lowest spending for a high school district in New Jersey this 
year.
    Mr. Barrett. For high school. And how does that compare to 
the 28 that are going to get bumped up?
    Ms. Saylor. Well, they will get bumped up--the highest 
spending districts spend about $13,000 to $14,000 per pupil.
    Mr. Barrett. But those are not the poor ones, obviously?
    Ms. Saylor. They--well, they'll be getting the funding so 
that they will have the same money as the rich districts. And I 
don't think that's going to solve their problems.
    Ms. Bryant. I think across the country, there is great 
disparity between what is spent on education. We know that. If 
you ever want to have a read that makes you get riled up to 
give a speech, read Jonathan Kozol's book, Savage Inequalities, 
where he talks about the differences in funding.
    New Mexico's an interesting State. Ninety-five percent of 
funding for kids is State, so there really is no disparity in 
the State of New Mexico between rich and poor. But I think 
getting back to this hearing, if poor districts are 
disproportionately impacted by mandates like IDEA and some of 
the laws we have been talking about, then I would argue that 
maybe Congress does have a responsibility to look at easing 
that impact on those poor districts.
    And I think, Mr. Chairman, your idea of looking at the 
different categories to address these different pieces of 
legislation is a good one. And we will provide you with 
additional information after this hearing on that.
    Mr. Barrett. When you say ``easing the impact,'' this maybe 
goes back to Mrs. Cross's position. Are you saying, then, that 
we should remove some of these mandates?
    Ms. Bryant. No. I'm saying that you should come up with the 
resources so that--for example, IDEA, where there is a 
disproportionate impact on urban districts, that the funding 
should match the mandate.
    Mr. Barrett. Fine. Thank you.
    Mr. Shays. You all have been very helpful in launching us 
on this process. We'll probably have two to four hearings--
excuse me, three to four hearings--on this issue and maybe more 
as time goes on. But we're going to do it systematically and 
hope to learn a lot in the process and make some valuable 
suggestions to the Congress.
    So we thank all of you for coming. And with that, we will 
leave the record open for 3 days. And we have done our--
unanimous consent. So we're all set.
    This hearing is adjourned.
    [Whereupon, at 11:54 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 45630.045


</pre></body></html>
